<html>
<title> - PREPARING FOR THE 2009 PANDEMIC FLU</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  PREPARING FOR THE 2009 PANDEMIC FLU

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2009

                               __________

                           Serial No. 111-64


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-097                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MIKE DOYLE, Pennsylvania             GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Henry Waxman, a Representative in Congress from the State of 
  California, opening statement..................................     1
    Prepared statement...........................................     3
Hon. Nathan Deal, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     9
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    10
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    12
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    65
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............    71
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    73
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, prepared statement....................................    74

                               Witnesses

Kathleen Sebelius, Secretary, U.S. Department of Health and Human 
  Services; Accompanied by Rear Admiral Anne Schuchat, MD, 
  Assistant Surgeon General, United States Public Health Service, 
  Director, National Center for Immunization and Respiratory 
  Diseases.......................................................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................    77


                  PREPARING FOR THE 2009 PANDEMIC FLU

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 2009

                          House of Representatives,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:10 p.m., in Room 
2123, Rayburn House Office Building, Hon. Henry A. Waxman 
[chairman of the committee] presiding.
    Present: Representatives Waxman, Dingell, Markey, Pallone, 
Eshoo, Stupak, Green, DeGette, Capps, Harman, Schakowsky, 
Inslee, Baldwin, Butterfield, Melancon, Barrow, Hill, Matsui, 
Christensen, Castor, Sarbanes, Murphy of Connecticut, Space, 
McNerney, Braley, Barton, Hall, Upton, Deal, Whitfield, 
Shimkus, Pitts, Walden, Murphy of Pennsylvania, Burgess, 
Blackburn, Gingrey, and Scalise.
    Staff Present: Karen Nelson, Deputy Committee Staff 
Director for Health; Ruth Katz, Chief Public Health Counsel; 
Sarah Despres, Counsel; Elana Leventhal, Policy Advisor; 
Stephen Cha, Professional Staff Member; Alvin Banks, Special 
Assistant; Jen Berenholz, Deputy Clerk; Mitchell, Smiley, 
Special Assistant; Ryan Long, Minority Chief Health Counsel; 
Chad Grant, Minority Legislative Analyst; and Aarti Shah, 
Minority Health Counsel.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. The meeting will please come to order.
    Today's hearing on the 2009 pandemic H1N1 flu is a 
continuation of this committee's ongoing interest in learning 
more about and staying on top of this developing and continuing 
situation. The hearing builds on the work of Chairman Pallone's 
Health Subcommittee, which held an initial hearing on the issue 
earlier this year.
    From then until now, one thing has become crystal clear, 
even as events continue to evolve. As a Nation, we must be 
prepared for whatever the H1N1 virus brings in its path, to 
fight it as best we can, and to ensure adequate and appropriate 
resources to treat those who fall seriously ill.
    We are especially pleased to have as our witness today the 
Secretary of Health and Human Services Kathleen Sebelius. 
Secretary Sebelius will share with us the government's plan for 
addressing this enormous challenge.
    When the Health Subcommittee first met 6 months ago, there 
was much we did not know about H1N1 virus. We didn't know how 
dangerous the virus was. We didn't know if there would be a 
vaccine available. We didn't even know if the virus would 
return in the fall. Many of those questions have now been 
answered.
    We know this outbreak won't be the false alarm of 1976, 
when the surge of swine flu cases never materialized. Indeed, 
we are already seeing a large increase in cases, a pattern that 
is likely to continue. The epidemic will undoubtedly lead to 
hospitalizations. Schools may close. Health care facilities may 
become overwhelmed. And almost certainly there will be some who 
will die.
    But there is also good news. This administration has 
carried on the efforts begun several years ago to prepare the 
country for the very situation we must now tackle. The plans 
developed appear to be unfolding appropriately, and experts 
tell us that, so far, the 2009 H1N1 epidemic will not be 
anything like that which occurred in 1918, when an unusually 
dangerous flu virus devastated our Nation.
    More good news was reported just last week. We not only 
will have an effective vaccine in place; studies now indicate 
that the vaccine will probably require only a single dose 
rather than the two doses many had predicted. As a result, I 
hope Secretary Sebelius will report today that across the 
country we will have a good supply of vaccine, allowing us to 
avoid both the additional cost and the additional needle stick 
that a second dose would mean.
    I expect that we will hear more about this as well as other 
H1N1 flu activities from Secretary Sebelius. I know all of us 
are also particularly interested in getting the Secretary's 
perspective on not only the progress we are making in taking on 
this virus but also the difficulties we surely will face along 
the way.
    But as we make preparations and carry out detailed plans 
for dealing with this new virus, we must also take heed of the 
battle we confront annually against the seasonal flu. Each and 
every year, some 36,000 Americans, mostly among the elderly, 
die from this preventible disease. We can and should do much 
better than that, and I hope that Secretary Sebelius can also 
share with us the administration's thinking on addressing this 
concern and, in particular, how that approach relates to its 
H1N1 strategy.
    With that, on behalf of the entire committee, I want to 
thank the Secretary for appearing before us today. We all look 
forward to hearing from you and to learning more about the H1N1 
challenges that lie ahead. But before the Secretary will be 
recognized to make her statement, I want to call on several of 
the members of the committee to make opening statements.
    And we will start with Mr. Deal.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4097A.001
    
    [GRAPHIC] [TIFF OMITTED] T4097A.002
    
    [GRAPHIC] [TIFF OMITTED] T4097A.003
    
    [GRAPHIC] [TIFF OMITTED] T4097A.004
    
    [GRAPHIC] [TIFF OMITTED] T4097A.005
    
  OPENING STATEMENT OF HON. NATHAN DEAL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Deal. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing on the 
examination of our Nation's preparedness for the H1N1 flu virus 
as we approach the flu season.
    And I look forward to Secretary Sebelius's testimony and 
welcome her to the hearing today.
    As I mentioned during the subcommittee hearing last April, 
the threat of a global influenza pandemic is one of the 
greatest public health threats that we face today. When 
speaking to scientists, researchers, health care providers, and 
other experts in the field, I truly believe that it is not a 
matter of if a flu pandemic hits but when. And I believe we 
have the responsibility to ensure the greatest public 
protection possible when the situation arises. We all recognize 
that is not a simple matter.
    Since the first reports of this novel strain of the 
influenza virus began to surface earlier this year, U.S. and 
international authorities have taken aggressive steps to 
mitigate the spread of the illness. This has taken the 
dedication and cooperation of all those involved, both public 
and private sectors, particularly as the infection rates have 
increased.
    As my home State of Georgia and other areas in the South 
have witnessed the easily transmittable H1N1 strain as it 
continues to spread, particularly as we have now begun school 
somewhat earlier than other parts of the country, we all 
recognize that this is a real threat. I have been in contact 
with my State's agencies, and they are also coordinating, of 
course, with your offices at the Federal level, and also as you 
are coordinating with international groups during these months 
that will lie ahead as we try to deal with this problem.
    The current response to the H1N1 strain was coordinated in 
large part with plans which were developed to respond to a 
similar situation, the H5N1 avian flu. In 2006, Congress 
provided approximately $6 billion for pandemic planning and 
cross-agency collaboration. These earlier efforts and others 
focused on preparedness for emergencies have streamlined the 
response to this situation. While our efforts to combat H1N1 
have been aggressive, we must continue to monitor the situation 
closely and be proactive, as we hopefully will be able to avoid 
this but regrettably know that it will probably increase in 
severity.
    Again, thank you, Secretary Sebelius, for being with us 
today. I look forward to your testimony.
    I yield back, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Deal.
    Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    And thank you, Secretary, for being here today to give us 
an update on the H1N1 situation.
    When the virus first hit, it was devastating. It caused 
sickness. It generated fear. It caused panic. And it caused 
many deaths, and there were many unknowns about the virus. We 
did not know how the disease would present itself over time, 
how well it would respond to the antiviral medications on the 
market today, or how quickly it would develop resistance to 
those drugs. And we didn't know if and how quickly we would be 
able to develop and manufacture a vaccine.
    While we have learned more about the virus, and we have 
made progress on the vaccine, it has spread worldwide across 
continents and hemisphere. And now as a level six pandemic, the 
highest warning level there is, it has continued to spread in 
the U.S. during the summer months, which is unusual for the 
influenza, and that adds to the unknowns and reinforces the 
fact that we still have to take it seriously.
    In my State alone, 17 people have died since the beginning 
of the outbreak and over 570 have been hospitalized, and we 
have yet to see the disease at its strongest. In addition, the 
peak of this flu coincides with the normal flue season, which 
on its own can be extremely taxing on the health care delivery 
system.
    I am curious to hear how the Federal Government is tackling 
the fact that this flu tends to affect individuals under 50 
years of age, unlike the seasonal flu that hits the elderly the 
hardest. The younger population does not deal with disease 
often and tends not to seek medical care as readily.
    There have been many questions about our Nation's ability 
to respond to medical emergencies. Unfortunately, it is hard to 
justify spending money on programs that are in place in case 
something bad happens, especially since so many programs that 
are needed on a daily basis have been chronically underfunded, 
but as history has taught us, grand-scale disease outbreaks can 
be devastating.
    At a time when our economy is just beginning to mend and 
the number of uninsured is rising, we must now, more than ever, 
be prepared for such a situation, and we don't want to add to 
the health insurance crisis, and we certainly don't want to 
hinder the economic recovery.
    So I want to commend you and your team, Secretary, for the 
excellent work you have done on this issue. During the first 
wave of the virus, I know you and your staff were working 
around the clock to provide tests and test results States, to 
develop a vaccine, to educate State and local governments, and 
keep the public informed of the latest information on the virus 
and how best to protect themselves from becoming sick. So I 
want to thank you for that, and look forward to hearing more 
today about how the Federal Government is prepared for this 
next wave of H1N1. Thank you.
    Mr. Waxman. Thank you, Mr. Pallone.
    Mr. Barton.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And thank you, Madam Secretary, for being here.
    I want to say that this is a very important issue. 
Obviously, America and the world is worried about the pandemic 
flu. We had begun to discuss this this year back in April when 
we had a hearing on the H1N1 virus. I would like to review some 
of the recent history.
    Department of HHS has responded by declaring a public 
health emergency which has allowed the Food and Drug 
Administration to approve the use of approved antivirals and 
other measures. The Centers For Disease Control has responded 
by releasing antiviral drugs from the Strategic National 
Stockpile. To date, all 50 States have received their portion 
of that stockpile, which has been replenished through 
purchases. HHS is working with the Department of Homeland 
Security and is coordinating response efforts.
    Much of this work has been successful because we aren't 
breaking new ground. This committee and the Federal Government 
had begun serious work back in 2004, so, in 2009, while we are 
not totally prepared, we are better prepared than we ever have 
been.
    There are still some issues that should be addressed, as 
outlined in the President's Advisory Council on Science and 
Technology. It is my understanding that the administration is 
actively working to address these concerns, and I look forward 
to hearing from you, Madam Secretary, on those issues.
    I guess that is it, Mr. Chairman. I have another part of my 
statement, but it is on the overall health care reform, and I 
understand that you limited your statement to the pandemic flu. 
So, in the spirit of this hearing, I am going to do that.
    I want to take a point of personal privilege and say I 
appreciate all the good wishes that many of you have given me 
about my birthday. Today is my 60th birthday. And 30 didn't 
bother me. Forty didn't bother me. Fifty didn't bother me, but 
60 bothers me. But I am glad to be having it, and I am blessed 
to have a great family, great friends and I think to be on the 
greatest committee on the House of Representatives.
    So, with that, Mr. Chairman, I yield back.
    Mr. Waxman. Thank you, Mr. Barton.
    I, too, want to wish you a happy birthday, and tell you, 
you don't look a day over 59.
    Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. The gentleman from 
Texas has spoiled my opening remarks. It was my intention to 
congratulate him as a fine young man who has performed well in 
his responsibilities, and to congratulate him on his 60th 
anniversary and hope that he reaches many more. I am sure that 
at the least I am the first on this committee to have the 
privilege and the pleasure to doing that.
    So, Mr. Barton, all of us on the committee do wish you a 
very, very happy birthday and many, many happy returns.
    Now, Mr. Chairman, I want to thank you for holding this 
important hearing.
    And I want to welcome Secretary Sebelius and thank her for 
joining us this afternoon.
    Madam Secretary, you recall that your father was a member 
of this subcommittee, a very distinguished one, and I am sure 
that gives you good memories when you appear in this room.
    You have taken a proactive role in preparing our country 
for the upcoming H1N1 pandemic by implementing surveillance 
procedures to track an outbreak, mitigation measures to keep 
Americans healthy, a proper vaccination plan, and a 
communications strategy to disseminate information of 
importance. I want to commend you and look forward to hearing 
your update on the administration's progress in planning for a 
potential outbreak.
    At the same time, I want to recall that on an earlier 
occasion, we made some fine mistakes in dealing with a health 
problem of this kind on a related virus which led to some 
splendid costs and some fine earnings for the legal profession. 
And I want to tell you, Madam Secretary, I am pleased that you 
have not fallen into any of the holes that your predecessors 
did on that one.
    In any event, we have held, as all know, a hearing earlier 
on H1N1 when there were only the first few people who were 
infected with the virus. It appears that the spread of the 
influenza virus that we are discussing did not let up during 
the summer as some had hoped, and experts predict an increased 
number of cases in the upcoming months.
    As of September 5, 2009, my own State of Michigan has 
already seen 3,419 confirmed or probable cases of H1N1. 
Further, 11 people, most with underlying health conditions, 
have died after contracting the virus. All 50 States have 
reported now that there are cases of the virus within their 
borders, and Nationwide about 600 persons have died and 9,000 
have been hospitalized. These figures highlight the need for 
the Congress and the administration to work together to prepare 
for the months ahead.
    Preventing the spread of H1N1 will require collective 
action not only from Federal, State, and local governments, but 
also from individuals as well. To address this, it is 
imperative that we prepare evidence-based programs for parents, 
children, and businesses, and also public health professionals, 
on what to expect as the Nation prepares for more flu cases 
than seen in the past few years. I want to applaud the 
administration and the Federal Government for stockpiling 
vaccines, masks, antiviral medications, ventilators, and other 
things necessary to address the potential upcoming problems. 
Influenza is unpredictable, and we must indeed be prepared for 
a wide variety of surprises.
    Today, Federal, State, and local officers are planning and 
executing multimedia outreach campaigns to arm Americans with 
the information they need to best keep themselves healthy or to 
address their problems once they become ill. This is 
imperative, because while we wait for H1N1 vaccine to become 
available, we must each play a part in slowing or reducing the 
spread of the virus with simple steps like handwashing and 
staying home when sick.
    Additionally, it is important for families and businesses 
to prepare their strategies for dealing with H1N1. I have 
created an H1N1 agenda for my own office, and urge other 
businesses here and elsewhere to do the same. I look forward to 
working with you, Mr. Chairman, and the committee, and also 
with you, Madam Secretary, as we seek to mitigate the outbreak 
of H1N1.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Dingell.
    Mr. Stupak.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, for holding this 
important hearing on the pandemic flu preparedness.
    Secretary Sebelius, welcome to the committee, and I look 
forward to hearing your testimony on the Department of Health 
and Human Services' efforts to ensure Federal, State, and local 
public health officials are ready to prevent or respond to the 
spread of the H1N1 flu.
    When the H1N1 outbreak began in late April, Federal and 
State health officials acted quickly to deal with the outbreak. 
Among other things, antiviral drugs were released from the 
National Stockpile, and efforts were immediately undertaken to 
develop, manufacture, and to test a vaccine. Congress provided 
an emergency appropriation of $1.9 billion for a full response. 
An additional $5.8 billion was authorized contingent upon a 
Presidential request documenting the need for and the proposed 
use of the additional funds. I am interested in learning how 
much of this money is actually going to public health agencies.
    In our communities, particularly rural districts like the 
one I represent, our local public health agencies, hospitals, 
and clinics, shouldered the responsibility for responding to a 
public health crisis. It is vital they receive financial 
support from the Federal Government.
    H1N1 is unique from flu season. Unlike the seasonal flu, 
H1N1 affects a different population; in particular, young 
people with children, younger adults, and pregnant women. From 
all indications I have read, the vaccines for H1N1 will not be 
ready until mid October. I am looking forward to hearing from 
you on what types of infrastructure HHS and CDC will have in 
place to distribute the vaccines in a timely fashion to 
pregnant women, people who live with or care for young 
children, health care and emergency services personnel, persons 
between the ages of six months and 24 years of age, and people 
between 25 and 64 who are at a higher risk from the H1N1 
because of chronic health disorders like asthma.
    As chairman on the Subcommittee on Oversight and 
Investigations, this is an issue I will continue to monitor 
following today's hearing. I look forward to your testimony and 
learning how well the Federal Government is coordinating with 
State and particularly local officials and as a Nation will 
respond and hopefully prevent widespread outbreak.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Waxman. Thank you, Mr. Stupak.
    By previous understanding with the minority, we said that 
the only ones who would be recognized for opening statements 
would be the chairman, the ranking member, Mr. Dingell, and 
then the Chair and the ranking member of the Health and the 
Oversight Subcommittees.
    But, without objection, the record will be held open for 
any opening statements from any member that wishes to include 
them. I want to do this and move on because--Mr. Walden, are 
you ready for your opening statement?
    Mr. Walden. Mr. Chairman, I will submit it for the record, 
because I don't want to take too much time away from the 
Secretary. I appreciate the opportunity to do that. I look 
forward to your comments on this, and I do hope you will be 
able to come back at some point because I am sure we have 
questions on the overarching health care bill.
    But I would just say that the flu is something we are all 
concerned about. I have a son who is a sophomore at Wake Forest 
University, which got swept pretty early on with the flu 
outbreak. He got it. I don't know if it was the H1N1 and 
neither does he, but he has recovered, thankfully. But it is an 
issue all families are worried about. So I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Walden appears at the 
conclusion of the hearing.]
    Mr. Waxman. Madam Secretary, we are delighted to have you 
with us. Your full testimony has been submitted in advance and 
will be made part of the record, and we want to recognize you 
for your oral presentation to us.

 STATEMENT OF THE HONORABLE KATHLEEN SEBELIUS, SECRETARY, U.S. 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES; ACCOMPANIED BY REAR 
 ADMIRAL ANNE SCHUCHAT, MD, ASSISTANT SURGEON GENERAL, UNITED 
  STATES PUBLIC HEALTH SERVICE, DIRECTOR, NATIONAL CENTER FOR 
             IMMUNIZATION AND RESPIRATORY DISEASES

    Secretary Sebelius. Thank you very much, chairman Waxman, 
Ranking Member Barton, Mr. Deal, Mr. Pallone, Chairman Emeritus 
Dingell, Mr. Stupak, Mr. Walden, members of the committee. It 
is very good to be back before the Energy and Commerce 
Committee. And I appreciate the opportunity to give you an 
update on the public health challenges of the H1N1 influenza.
    Let me just start by saying the administration is taking 
these challenges very seriously. In fact, the night I was sworn 
in on April 28, I went immediately to the situation room 
because this virus was just breaking out, and from day one, 
this has been very high on my radar screen.
    We are working in close partnership with virtually every 
part of the Federal Government, but also with Governors, 
mayors, tribal leaders, State and local health departments, 
emergency personnel, working with the medical community, the 
private sector, to actively prepare for the virus outbreaks 
that may develop over the next few months and to have some 
mitigation strategies in place in the meantime.
    Since the initial outbreak of the 2009 influenza, not only 
has a worldwide pandemic been declared, it has also presented 
itself as the dominant flu strain in the southern hemisphere 
during the winter flu season. Here in the U.S., we continued to 
see H1N1 flu activity over the summer, which is unusual, and as 
a number of you have already noted, it has increased now that 
the fall is under way. We are anticipating further increases in 
flu cases as seasonal flu begins circulating among us.
    We have provided, Mr. Chairman, each of the members with an 
update that is at your seats with some more details on the 
current situation, including a situational update that is on, I 
think, the third page of your handout. Dr. Anne Schuchat from 
the Centers for Disease Control is with me today, and CDC gives 
us the these situational updates on a daily basis, and we 
wanted you to have the newest information.
    Although evidence to date shows that the virus has, 
fortunately, not changed to become more deadly, what we know is 
this influenza is unpredictable, and we need to monitor both 
the impact of the 2009 H1N1 and seasonal flu throughout the 
next several months.
    The virus is in fact in more people than we typically see 
with seasonal flu, including children, younger adults, and 
pregnant women, and slowing this spread of the virus is a 
responsibility shared by all of us.
    Chairman Emeritus Dingell already referenced there are some 
simple steps; handwashing, covering coughs and sneezes, and 
staying home when you are sick are important steps. The 
government-wide web site, www.flu.gov, does have comprehensive 
information about what to do to avoid getting the flu.
    And I would suggest, Mr. Chairman, I know we have 
communicated this to the offices, but on that Web site, 
flu.gov, are widgets. If any Members of Congress want to put a 
widget on your own Web site so that your own constituents can 
monitor on a regular basis, see the latest basis CDC guidance, 
get regular information, we would strongly encourage you to do 
that. If I am speaking in techno speak, a 12-year-old can be 
hired easily and tell you what to do with a widget. My 
recommendation.
    Oh, I apologize, Ranking Member Barton, I should have 
started with a happy birthday. And you will find the 60s will 
treat you well. It is a good place to be.
    To date, the CDC has issued recommendations on how 
individuals, schools, child care settings, colleges and 
universities, large and small businesses can guard against the 
flu, as well as a recent guidance on the appropriate use of 
antiviral drugs. Again, all of those are on the Web site and 
can be downloaded and shared with constituency groups if you 
are going to have some meetings at home. Guidance on infection 
control and worker safety in health care settings is 
forthcoming in the next few days.
    As I announced this weekend, we plan to initiate our H1N1 
vaccination program in October. Mid October is still the target 
for the large-scale campaign to get under way, but we 
anticipate having limited amounts of vaccine available a week 
or 10 days earlier.
    I am pleased to report that today the Food and Drug 
Administration has approved applications for vaccines for the 
2009 H1N1 virus from four of the manufacturers of the U.S.-
licensed seasonal influenza vaccines. The vaccines for this 
virus are being produced under careful FDA oversight using the 
same licensed manufacturing processes and facilities used for 
seasonal flu vaccines that are provided every year to protect 
millions against the flu.
    And in response, Mr. Chairman, to your point, seasonal flu 
vaccine is now available widely in cites around the country, 
and again, we are urging people strongly, particularly if they 
are in the target population for seasonal flu, to go ahead and 
get the seasonal flu vaccine right now.
    We recently, just last week, had good news from studies 
being done both by NIH and manufacturers that a single dose of 
the vaccine rapidly introduces a strong immune response in 
healthy adults. We think that age group could go down as low as 
age nine, but the clinical studies in children and pregnant 
women are still under way, so we don't have the full data about 
whether children will need two doses or not. They do in 
seasonal flu, younger children. We are still waiting for those 
results to be back.
    And, Mr. Chairman, originally we thought that it would take 
up to 21 days for the immune response to be robust, and it is 
showing up in 8 to 10 days. That is very good news. So one 
dose, 8 to 10 days for most of the population above age nine we 
think is a very positive step forward. The trials in pregnant 
women are under way, as I said, and in children, and our 
expectation is that the vaccine will be a good match in 
protecting against these populations as well.
    Once ready, the vaccine will be shipped through a central 
distribution system and available in up to 90,000 sites around 
the country. Every State was asked to develop a plan and 
identify the appropriate vaccination sites. Our contractor is 
shipping directly to those sites so there is not a glitch along 
the way.
    Two types of vaccine, a flu shot made from inactive aided 
virus and a nasal spray made from live weakened virus, will be 
available, free of charge, though some providers may charge an 
administration fee. And, again, Congress did authorize funds at 
the time of the supplemental bill to cover some of the costs, 
and the Department of Health and Human Services has expended on 
top of that about $1 billion in our funds to get that process 
started before the supplemental funding was available.
    CDC's Advisory Committee on Immunization Practices, ACIP, 
recommended that initial doses of the H1N1 vaccine go to people 
at greatest risks of complications from the flu as well as 
those who have frequent contact with people at risk, and we are 
working with States, territories, tribes, local communities, as 
well as the private sector to help distribute and administer 
the new H1N1 vaccine. Thanks to Congress, we have allocated 
$1.44 billion for States and hospitals for planning and 
preparation.
    The Nation's current preparedness is a direct result of the 
investments and support of the Congress and the hard work of 
the HHS agencies and States and local officials across the 
country, both recently, but certainly over the last several 
years. So we look forward to continuing to work with Congress 
in the weeks and months ahead.
    Again, Mr. Chairman, I thank you for the opportunity to 
participate in the conversation, and I look forward to taking 
your questions.
    [The prepared statement of Ms. Sebelius follows:]

    [GRAPHIC] [TIFF OMITTED] T4097A.006
    
    [GRAPHIC] [TIFF OMITTED] T4097A.007
    
    [GRAPHIC] [TIFF OMITTED] T4097A.008
    
    [GRAPHIC] [TIFF OMITTED] T4097A.009
    
    [GRAPHIC] [TIFF OMITTED] T4097A.010
    
    [GRAPHIC] [TIFF OMITTED] T4097A.011
    
    [GRAPHIC] [TIFF OMITTED] T4097A.012
    
    [GRAPHIC] [TIFF OMITTED] T4097A.013
    
    [GRAPHIC] [TIFF OMITTED] T4097A.014
    
    [GRAPHIC] [TIFF OMITTED] T4097A.015
    
    [GRAPHIC] [TIFF OMITTED] T4097A.016
    
    [GRAPHIC] [TIFF OMITTED] T4097A.017
    
    [GRAPHIC] [TIFF OMITTED] T4097A.018
    
    [GRAPHIC] [TIFF OMITTED] T4097A.019
    
    [GRAPHIC] [TIFF OMITTED] T4097A.020
    
    [GRAPHIC] [TIFF OMITTED] T4097A.021
    
    [GRAPHIC] [TIFF OMITTED] T4097A.022
    
    [GRAPHIC] [TIFF OMITTED] T4097A.023
    
    [GRAPHIC] [TIFF OMITTED] T4097A.024
    
    [GRAPHIC] [TIFF OMITTED] T4097A.025
    
    [GRAPHIC] [TIFF OMITTED] T4097A.026
    
    [GRAPHIC] [TIFF OMITTED] T4097A.027
    
    Mr. Waxman. Thank you very much, Madam Secretary, for that 
update.
    There are many members here, because this is an important 
hearing, and I know you have to leave in a couple hours. In 
order to accommodate the members, what I am going to do, with 
Mr. Barton's assent to ask each member to ask one question. We 
will put the timer on at 3 minutes. But we would appreciate it 
if members could ask just one question, but no more than 3 
minutes.
    Mr. Barton, is that correct?
    Mr. Barton. Yes. And I want to let the minority members 
know that I support this; in fact, it is my recommendation. 
There is a precedent for this. Other Cabinet Secretaries that 
have been before the panel, we have adopted this practice. I 
think it is fair, so that the junior members have an 
opportunity to ask a question as well as the senior members.
    Mr. Waxman. Thank you, Mr. Barton.
    I am going to start off the questions with a more junior 
member to me, Mr. Markey.
    Mr. Markey. I thank the chairman very much. We have been 
sitting next to each other for 33 years.
    And the 60s are great, too, Madam Secretary.
    You know, one of the real questions that people have is the 
safety of this drug, and there was a real concern going back to 
1976 and that swine flu epidemic and the diseases later 
associated with the distribution of that drug. So just so I can 
understand this, this drug has not yet been FDA approved; is 
that correct?
    Secretary Sebelius. It just was licensed today.
    Mr. Markey. It was licensed today. That is great news. And 
could you talk a little bit about what is different, what the 
difference is between this drug and the drug back in 1976 in 
terms of what the FDA and the agency believe will be the impact 
on Americans?
    Secretary Sebelius. Well, Mr. Markey, one of the first 
steps that the President took was to actually gather the 
experts from 1976 together and ask for advice about what went 
right and what went wrong. And we had an opportunity to meet 
with everybody from the then Secretary of Health Environment to 
the Surgeon General to some of the scientists who were 
involved, and they gave some very good advice.
    The principle difference may not have been in the 
manufacturing of the drug but the fact that the flu never 
spread, so that the outbreak that was initially identified 
among about 200 soldiers in Fort Dix never went anywhere. So a 
massive vaccination campaign was launched. About 40 million 
Americans were vaccinated, and yet there was no flu. Not in 
America, not anywhere.
    So we are in a very different situation today, where we 
know this virus is spreading. And this vaccination, vaccine, is 
actually being manufactured exactly like the seasonal flu 
vaccine. It is showing up in the same way, and it is using the 
same processes and procedures.
    So, in terms of the safety and efficacy, while there are 
clinical trials under way to determine the right dosage and 
really the efficacy of the vaccine, is it hitting the right 
target, there have been years of clinical trials and lots of 
data gathered on seasonal flu vaccines. So we are assured by 
the scientists that lots of steps have been taken along the way 
to make sure that this will be a safe procedure.
    There has been more oversight than in 1976, better made 
somewhat differently, more oversight in testing and in quality. 
So we do not anticipate the same problem. And, as I say, if it 
were a different process than seasonal flu, we would have more 
concerns, but it has been similar.
    Mr. Waxman. Thank you, Mr. Markey.
    Mr. Barton.
    Mr. Barton. Madam Secretary, I may have questions for the 
record, but my one question is something you may not be aware. 
I was briefed this morning by officials at Texas A&M, which is 
not in my district, but it is the school that I went to. They 
have developed, if I understood them correctly, a vaccine that 
is made from hydroponic tobacco that they can produce up to 100 
million doses very quickly, if necessary. Are you familiar with 
that, by any chance?
    Secretary Sebelius. Mr. Barton, I don't know about that 
vaccine. I do know that tobacco is one of the growing agents 
looked at as an alternative to the egg-based vaccines. But I 
don't--
    Mr. Barton. If I were to get the researchers to touch base 
with your staff, would you all be willing to be briefed about 
that program?
    Secretary Sebelius. Sure.
    Mr. Barton. Thank you, Madam Secretary. Thank you.
    Mr. Waxman. Mr. Dingell had to leave.
    Mr. Pallone.
    Mr. Pallone. Thank you.
    Madam Secretary, I am concerned about emergency room 
hospital capacity, that type of thing. There was this report 
that was issued last month by the President's Council of 
Advisers on Science and Technology that said there could be as 
many as 1.8 million hospitalizations in the United States 
during the epidemic. And of this 1.8 million, up to 300,000 
could require intensive care units. And those patients could 
occupy 50 to100 percent of all ICU beds in affected areas at 
the peak of the epidemic.
    Even without the epidemic, those ICUs nearly operate close 
to capacity in my district. So what, with regard to the 
Nation's hospitals, I mean, do we have the surge capacity to 
meet this potential demand? And can you tell us what steps the 
Department is taking to help hospitals prepare for this surge 
in cases?
    Secretary Sebelius. Mr. Pallone, I think it is a very 
important question.
    Part of the planning effort that was launched well before 
this virus was identified was in building surge capacity for 
hospitals. And billions of dollars have been invested over the 
last number of years. In fact, I had a chance here in D.C. To 
visit their five regional center sites that have been developed 
to get even increased capacity, and one is here in Washington, 
D.C., and get a sense of what they are doing. So there have 
been recent dollars put forward, but also dollars over the 
years to have that planning go on for surge capacity.
    We are concerned that we also try and get information to 
the public as rapidly and as clearly as possible. The worst of 
all worlds is to have everybody show up at the hospital or come 
through an emergency room door. The vast majority of 
individuals who get H1N1 so far are not terribly ill, do not 
require additional treatment, and certainly don't require 
testing to see what kind of flu they have, so that we are 
trying to assure people the flu is the flu is the flu right 
now. CDC will continue to test through hospitals and other 
areas those who are getting seriously ill so we can monitor the 
cases. But the testing isn't required.
    So we have resources to hospitals. We are helping with 
systems that will put in place additional medical capacity, 
everybody from the Medical Reserve Corps to additional 
personnel who we can help with assistance. So we don't think at 
this point that the PCAST, the Presidential Advisors scenario, 
is the most likely scenario to happen. We have watched the 
southern hemisphere very closely and what they have done for 
surge capacity, and, again, we will learn a lot from them. But 
they had no critical emergencies that weren't able to happen 
with shifting some space.
    So I think, at this point, we are doing everything we can 
to get people ready and provide for some alternative, but part 
of it is to diminish, hopefully, the strain on hospitals by 
encouraging people to go to the Web site, to learn more, to 
call the primary care provider and urge them to just take steps 
that they would with regular flu.
    Mr. Waxman. Thank you, Mr. Pallone.
    Mr. Deal.
    Mr. Deal. Thank you.
    I would like to ask about the distribution of the vaccine 
when it becomes available. Will the distribution be sent to the 
States and the States determine where it will go to within 
their States? And will there be a determination of how much 
goes to each State, and what will be the factors that will be 
looked at in determining how many doses the State would be 
allocated?
    Secretary Sebelius. The distribution is based on a per-
capita basis, and States absolutely develop their plans working 
with their emergency personnel, their local health departments, 
and others to determine the vaccination sites.
    So, again, the distribution contract is not going to go to 
one central site in a State as the traditional vaccine. It is 
going directly to the sites that have already been 
predetermined. States were asked to send plans to the CDC. Part 
of the resources provided by Congress helped with that planning 
effort. And the contract will be up to 90,000 sites that have 
already been determined. So it will be some traditional 
providers offices and health clinics and hospitals, but also a 
number of nontraditional sites.
    Mr. Deal. Could I ask one brief question on that? That per-
capita amount, is that determined by who the CDC thinks should 
be eligible for getting the vaccination, or just a general per-
capita?
    Secretary Sebelius. No. It is a general per-capita amount 
in terms of how it rolls out. We will have enough vaccine 
available for everyone. There is enough on order. We are 
looking now at the reorders for the one dose versus two. There 
will be enough vaccine.
    What we are concerned about is getting it to the priority 
populations as quickly as possible, and that is what we have 
asked the States to focus on, how to get pregnant women, 
children under the age of 24, caregivers of infants, health 
care workers, how to make sure that those folks get to the 
front of the line, if you will.
    Mr. Waxman. Thank you, Mr. Deal.
    Mr. Green.
    Mr. Green. Thank you, Madam Secretary.
    And I have read several articles in the media indicating 
the administration supports voluntary school-based vaccination 
to protect our children from the H1N1. And I am a cosponsor 
along with my colleague from Pennsylvania, Mr. Murphy, with a 
pilot program, H.R. 2596, which would allow HHS to perform a 
voluntary multi-State demonstration project to test the 
feasibility of using the Nation's elementary schools and 
secondary schools as influenza vaccination centers, in 
coordination with school nurses, school health programs and 
local health departments, community health providers, insurance 
companies, private and State insurance agencies and private 
insurance, and I am pleased that bill is part of H.R. 3200.
    Would the administration support a voluntary, multi-State 
school-based seasonal influenza and H1N1 vaccination program 
such as was created in H.R. 2596? And let me say that that 
version, I know Senator Reid in the Senate is looking to do a 
national version of that particular provision.
    Secretary Sebelius. Well, Mr. Green, what we are going to 
have is a demonstration, national demonstration project of the 
bill you just suggested going on in the next couple of months. 
And certainly our leadership at the Centers for Disease Control 
feel strongly that if we are successful in using schools as 
partners in vaccination, that that may be a great way to 
enhance the vaccination take-up rate going forward for seasonal 
flu and other issues. I am old enough that I was part of the 
group with the early polio vaccine, and we got that vaccine at 
school. That was always a partner.
    And this effort, we have school districts who are very 
eager to be vaccination sites and are standing by to do that. 
So we will know a lot about your voluntary program, and we 
think it probably will be a very good idea.
    Mr. Green. And being part of the sugar cube generation 
also, that I think this important; again, it needs to be 
voluntary, but we can have a great deal of more coverage by 
dealing with our schools, our centers in our community. And we 
are talking about our children.
    Secretary Sebelius. Given the age group that this virus is 
targeting, we thought schools and actually daycare centers and 
others are very appropriate outreach sites to reach the 
population who we need to reach. And so, working closely with 
the Secretary of Education and his counterparts, 
superintendents, the Governors. And I think most Governors are 
very enthusiastic of having the schools be voluntary 
vaccination sites.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Waxman. Thank you, Mr. Green.
    Mr. Murphy.
    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman. It is 
a pleasure to have you here, Madam Secretary. And thank you for 
all the work you are doing on health care, too.
    As part of this, I am assuming that part of the analysis 
you give with regard to this virus, if it was unchecked and 
unabated, the impact it would have overall on America's health 
care system, including the cost. One of the issues this 
committee is trying to grapple with, as you are, is the cost of 
health care in America.
    We have an impossible time getting information from the 
Congressional Budget Office on anything that has to do with 
prevention. Therefore, I am wondering if your office has 
gathered some information, analyzed that as this, for example, 
as these vaccinations are advanced out there earlier, what we 
are saving, and what is this overall savings that comes from, 
yes, the government is spending money to move these out there, 
but what is the impact on saving money and saving health care 
costs, and wondering if you have that information? If not, 
could you get it to us?
    Because this committee really would like to have some of 
that, if I could say so, Mr. Chairman.
    Secretary Sebelius. Mr. Murphy, I will certainly look to 
see what kind of cost effectiveness or strategies we have put 
together. I am not sure. I think we can tell you probably and 
gather it for you the cost of what happens with seasonal flu 
every year, the 200,000 hospitalizations, the 36,000 deaths, 
you know, what the impact is.
    I would suggest, though, what we don't have is then a huge 
sort of social cost. One of the projections, absent a vaccine, 
of this virus spreading even in a relatively mild case, which 
would be 200,000 hospitalizations, 36,000 deaths, that is what 
seasonal flu looks like every year. But if you have a 
widespread part of the population who misses work, what the 
impact is then on businesses and trade, whether you can even do 
continuity of businesses if you have essential workers missing.
    Part of the issue about schools is what happens if half the 
teachers are sick, or how do people go to work if half the kids 
are sick. So I don't know that we have added those costs, but 
we can try to put together some information for you about that.
    Mr. Murphy of Pennsylvania. I would appreciate it, because 
it is a type of modeling which we just don't have, not only in 
terms of scenarios of analysis, but now we have something very 
real that we anticipate could have an impact on workforce, 
education, as well as direct and indirect medical costs. And I 
would appreciate if you would get that to us.
    Thank you, Mr. Chairman.
    Mr. Waxman. Thank you very much, Mr. Murphy.
    I would call on Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. Thank you for holding 
this hearing. And thanks to a very capable former governor and 
a very capable team for putting in place a plan to prepare, not 
scare, the public. I do want to commend you on the tone of this 
plan, which has I think overcome a lot of the original hysteria 
that met the early stories about the effect of this illness. So 
thank you very much.
    My question, really, is taking this to the next level or 
perhaps to the next problem. Is this basic set of protocols we 
now have in place and the public pitch that we are making quite 
effectively about this strain of flu, will this be--could this 
be applicable to perhaps a pandemic that is more severe, a 
possible biological attack in our country, or other huge health 
challenges that might arise? And if this set of procedures and 
protocols and tone that we are using is not applicable, what 
steps can you take now to be sure it does--we are able to adapt 
it to future problems we don't presently anticipate?
    Secretary Sebelius. Well, I think that is a great question. 
And no question about the fact that Congress, working with the 
prior administration, put in place steps really that have been 
executed over the last 6 or 7 years of not only resources that 
have amplified efforts within the Department of Health and 
Human Services, including in our own vaccine development, 
operation, enhancements to NIH and Centers for Disease Control 
and FDA, but certainly resources at the State and local level 
and a lot of planning. As a former Governor, we went through 
pandemic planning. I never dreamed I would be sort of here with 
a pandemic, but we called together efforts over the years.
    So I think, at a minimum, what is happening over the next 
several months will enhance our entire public health 
infrastructure. Having hospitals look at the spring where the 
gaps were, redouble efforts to get ready for the fall is 
enormously helpful how they direct resources. Looking at 
workforce issues, how to get vaccinations to people. A huge 
challenge, and it is an ongoing challenge, is just information, 
how to make sure folks can access timely, accurate information 
in a very transparent fashion, and walk that balance between 
complacency and panic but get people prepared and ready.
    So I don't think there is any question that what we do over 
the next several months will significantly prepare us for 
whatever challenge is next. We know, whether that is a natural 
disaster or a manmade disaster, that that infrastructure 
strength, the communication strategies, working with the 
partnerships not only throughout government but in the private 
sector is enormously helpful and is exactly what you go through 
region by region. We just haven't done it nationally really in 
40 years.
    Mr. Waxman. Thank you, Ms. Harman. Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for taking the time to come 
and talk with us today. I am pleased that you are here, and I 
don't envy the task in front of you. I know it is going to be a 
rough flu season from what we are seeing and hearing already, 
and I do think the free flow of information is going to be an 
imperative as we try to handle this with our districts, with 
schools, with our public events that are taking place.
    You have testified before our committee twice. And the 
first time that you came, we were working on the health care 
reform bill, and now we are looking at what could end up being 
one of the, significant to our constituents, as the impact of 
that health care reform bill. This is a public health situation 
that we know is going to be in front of us to deal with this 
event.
    Now, when you were here before and we talked about the 
issues dealing with health care, we talked a little bit about 
the TennCare situation. I asked you about some of the issues 
that were there. Your responses took a while to get to me. They 
were a single sentence, and that prompted another question, and 
I just received the response to those today. So I do thank you 
for getting those. But I do ask that, as we move forward, that 
knowing that this is going to be critical, that we have timely 
and accurate information, that we do have that free flow of 
exchange as this public health issue affects our districts, and 
maybe a little bit more timely than the response to the 
questions which was a little bit curt and inadequate and 
bordering on disrespectful.
    I do want to say thank you for the widgets. I appreciate 
that those are on your Web site and that we can link to those. 
And I do want to ask you, as we are talking about the supplies 
and the supplies being let to the States, and you mentioned 
those that are most vulnerable to the flu, are those that--the 
physicians and the caregivers that are going to administrator 
the flu shots, do they have a ranking or a priority system, or 
will the States work that out? Are they going to take seniors 
and pregnant women first? Or do you have--can you give us any 
guidance on what that protocol is going to be for who gets to 
go at the front of the line?
    Secretary Sebelius. Well, Congresswoman, we have not tried 
to determine for States the most proper way to get to their 
target populations. We thought that was a local and regional 
decision. We have done a lot of work with the provider 
community outreach directly to OB/GYNs, outreach to primary 
care docs, to health clinics with the health infrastructure. 
But States are submitting plans based on their own 
determination, region by region, area by area, how best to 
target their vulnerable populations, and that is where the 
vaccine will be distributed.
    Mrs. Blackburn. So our best response to those populations 
when they call our offices is, consult your local physician?
    Secretary Sebelius. In terms of where to get the vaccine?
    Mrs. Blackburn. And who gets priority?
    Secretary Sebelius. Well, their local physician won't be 
determining who gets the priority. Again, the State health 
department has determined that, and that information should be 
available right now. There will be vaccine for everyone. It 
won't roll off the production line simultaneously. So the State 
really has predetermined where the priorities areas are and 
what sites should get it.
    Mrs. Blackburn. Thank you, ma'am.
    Yield back.
    Mr. Pallone [presiding]. The gentlewoman from Wisconsin, 
Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    Thank you, Secretary Sebelius, for your testimony. There 
were several very encouraging items of news in terms of the 
hope that one dose will be sufficient, that it will be getting 
the desired immune impacts within 8 to 10 days, and that you 
think you will have sufficient dosage for everyone starting 
with priority targets.
    I have a few questions, very short questions related to 
that vaccine issue, and then in follow-up will submit some 
written questions on strengthening our public health system, 
addressing workforce shortage issues, and technology issues. 
But on the vaccine, three quick questions.
    Of the 195 million doses ordered, is the hope that you can 
reach everyone through use of the adjuvant that you have also 
ordered? And so tell me a little bit about the use of adjuvant 
during this season.
    Second, I know that we had shortage of seasonal flu vaccine 
I think back in 2004 when there was a closure of a production 
facility in the U.K. We did not have a lot of domestic 
manufacturing capacity at that point. I believe that has 
changed, but I wonder if you can tell me, of the five 
manufacturers that we are working with for these dosages, where 
their facilities are located domestically versus foreign.
    And then, I believe you announced in your testimony that 
four out of the five manufacturers have been approved today by 
the FDA. What is the status of the fifth? Is there any reason 
we should be worried?
    Secretary Sebelius. No adjuvant is currently anticipated to 
be used in the United States at all. There are some backup 
plans if things took a terrible turn for the worse. We have 
never used in any widespread area an adjuvantive vaccine, so 
the scientists strongly recommended that we not head down that 
path. And this time, the current purchases are likely to be 
enhanced to get to the point. What you have reported is the 
initial purchases. But as we see the take-up rate as we get the 
rest of the clinical trials, we will make the purchases based 
on what is anticipated the take-up rate is for 300 million 
potential users. As you know, 100 percent of the people will 
never get vaccinated for anything, unfortunately. We currently 
have five facilities. In the year that we ran out of vaccine 
there was one. I'm sorry. We were down to one. There were two 
but one was debilitated.
    I can't tell you off the top of my head unfortunately 
exactly where they are. We will get you that information back. 
But what I was told yesterday by the vaccine committee is that 
we fully anticipate that all five will be licensed. There were 
some final steps needed to be taken in the final contract.
    Ms. Baldwin. Just on the domestic production and vaccines 
being made in America, I remember a particularly telling 
hearing during the last administration where if we were having 
a particularly virulent pandemic, the presumption was that if 
we weren't manufacturing it here in the U.S. it would not be 
available to us in the U.S., and I certainly hope that we are 
bolstering our domestic production of vaccine.
    Secretary Sebelius. What I am told is it is greatly 
enhanced and most of it is domestic.
    Ms. DeGette [presiding]. The gentleman from Georgia, Mr. 
Gingrey.
    Mr. Gingrey. Madam Chairman, thank you. Madam Secretary, 
thank you very much for being with us again. And let me just 
say at the outset that your efforts, along with those of 
Secretary Janet Napolitano when, way back, I guess, in June, 
July when you were getting confirmed I think you have done a 
great job. No question about it. I don't think anybody could 
ever accuse you of being "Katrina'd" on this issue. You have 
gotten a lot of money appropriated toward this effort. And my 
only concern, back then, a little bit lesser now, was the issue 
of creating a pandemic of fear. And I mentioned that to you, 
and you have already addressed that in your testimony. But I 
want to ask you about, particularly about pregnant women 
because that was what I did in my previous life as an OB-GYN 
physician, and I have three adult daughters and a daughter-in-
law and nine grandchildren, the daughter-in-law just had a baby 
3 weeks ago.
    Secretary Sebelius. Congratulations.
    Mr. Gingrey. Thank you, Madam Secretary. Very concerned was 
she, though, about this issue of the swine flu and what should 
she do and that sort of thing, questions about what if she got 
it, what would be the risk to her, especially in the third 
trimester, as she was then. And what was the risk to the fetus. 
And I think that we need to get more information. I noticed on 
WebMD a recent printout from WebMD. July 29, 2009. It says 
pregnant women, even if they are healthy, are at high risk of 
hospitalization and death from H1N1, swine flu, the CDC 
reports. Now, I would like for you to answer that question. Are 
they, I mean, I know they are at increased risk over the 
general population and there are certain issues with decreased 
lung capacity and not as vigorous immune response because of 
their pregnancy.
    It does put them at higher risk than the general population 
of women. But are they at high risk of hospitalization and 
death? And I think the answer to that is probably no, but 
comment on that if you will.
    Secretary Sebelius. Congressman, what we saw in the spring 
is that pregnant women constitute about 1 percent of the 
population. They were 6 percent of the hospitalizations and 
deaths that occurred, a significantly out-of-kilter population, 
and with no underlying health condition other than the 
pregnancy. So we are not talking about somebody who had 
diabetes going into pregnancy or someone with chronic lung 
condition.
    Mr. Gingrey. They are definitely at higher risk than the 
general population, maybe as much as five times, a factor of 
five.
    Secretary Sebelius. Six would be the--so, in terms of the 
outreach, we have tried to be--and that was not only the U.S. 
data, that is showing up around the world. That, again, 
pregnancy seems to be, in and of itself, an underlying health 
condition that significantly enhances the risks. So, I know 
that for a lot of pregnant women, I certainly did this myself, 
was reluctant to take anything during the term of the 
pregnancy. But talking to a number of OB-GYNs, looking at the 
data, talking to the scientists, there is a great belief that 
the risk of any sort of event occurring because of the vaccine 
far is outweighed by the risk that occurs without being 
vaccinated. And in your daughter's case, a new mom, babies 
under 6 months old are not recommended for the vaccine, so 
another of the target population is caregivers of infants 6 
months and younger, to try and protect the infant. So you sort 
of have----
    Mr. Gingrey. Madam Chair, I realize that my time--can I do 
a real quickie question? Maybe we can do a second round. I 
yield back. And thank you, Madam Secretary.
    Ms. DeGette. The gentlelady from California, Ms. Matsui is 
recognized.
    Ms. Matsui. Thank you, Madam Chair. And thank you, Madam 
Secretary, for being with us today again. In States and in 
cities across our country, local public health departments are 
really getting decimated by budget cuts. In my hometown of 
Sacramento, the public health department has already had to cut 
17 percent of its budget this year alone. These cuts mean that 
in my district alone, the public health department will be 
losing three communicable disease specialists and two 
microbiologists from a public health lab. This is on top of 
losses in field nursing staff, bioterrorism preparedness 
workers and other people who work behind the scenes every day 
testing samples for H1N1 virus and other communicable diseases. 
Madam Secretary, the one bright spot in these statistics I just 
mentioned is that my local public Health Department will be 
able to retain at least some positions thanks to a one-time 
infusion of recovery package dollars. What other plans do we 
have at CDC or in the department at large, to help local public 
health departments cope with the huge responsibilities they are 
going to have soon? And also too, what is the plan if the virus 
mutates some time soon so we have a greater pandemic emergency?
    Secretary Sebelius. Well, Congresswoman, part of the 
planning effort has certainly been to recognize that the 
situation you are describing in California is nationwide, that 
public health agencies have been severely hampered by the 
budget cuts, so that the resources, the $1.4 billion which was 
pushed out, hopefully, will help enhance that. We have also 
reactivated the Commissioned Corps, the emergency group of 
retired medical providers and volunteers who came together 
after 9/11. They are now about 200,000 strong throughout the 
country, registered in every State and kind of put them on 
notice to help with the vaccination efforts and have them able 
to be called upon. We do have our Commissioned Corps of health 
workers who, again, can be brought in to supplement some of the 
State-based efforts. But every State, as they submitted plans 
to the CDC, recognizes that part of the challenge in dealing 
with this is a restricted core of personnel, of trained 
personnel.
    Again, we are not urging folks to continue with the testing 
protocol. That was important early on to determine, but right 
now we are just moving more to the vaccination and mitigation 
phases to try and just diminish the circulation of the flu. So 
some of the earlier activities hopefully will be shifted into 
the vaccination effort.
    Ms. Matsui. Thank you
    Ms. DeGette. The gentleman from Louisiana, Mr. Scalise.
    Mr. Scalise. Thank you Madam Chair. And Secretary Sebelius, 
appreciate you coming before us. And since all my colleagues 
asked the questions that I had regarding the H1N1 situation, 
concerning last week's testimony, the President's address to 
the joint session of Congress, there were some things that he 
had said regarding I guess the new developments on the health 
care debate. Since the bill that passed out of this committee, 
the Congressional Budget Office testified that it would add 
$239 billion to the debt, and that 8 million illegal aliens 
would have access to the government plan. Since the President 
in his statements last week said that he wouldn't sign a bill 
that would add to the deficit and wouldn't allow illegals, 
would you support changes that would be necessary to make H.R. 
3200, which passed out of this committee, comply with those two 
initiatives that President Obama stated before the joint 
session to make sure that the bill doesn't add to the deficit 
which, right now it would add, and then to make sure illegal 
aliens wouldn't have access to the government plan, which CBO 
testified 8 million would.
    Secretary Sebelius. Congressman, I am pleased to have any 
number of discussions on health reform. And you know it is a 
top priority of the administration, and I would be pleased to 
come back and do that. The chairman asked that this hearing be 
on H1N1, and I would like to defer to that. I don't know--
    Mr. Scalise. We have never had the opportunity to ask you, 
because your only testimony to us was at a time when you had 
acknowledged that you hadn't looked at the details of the bill. 
So really, we are not going to have another opportunity that I 
know of to talk to you personally about the concerns we have 
that are in H.R. 3200.
    Ms. DeGette. Would the gentleman yield?
    Mr. Scalise. I would yield, yes.
    Ms. DeGette. I would advise the gentleman on behalf of the 
chairman that he does intend to have further discussions and 
meetings and hearings, and the chairman really has asked the 
Secretary to come and be prepared today to talk about the H1N1 
situation. And I think, you know, obviously, Members are 
allowed to ask any questions they like, but I think the 
Secretary's really prepared on that topic today. And I can 
communicate to the chairman that he should have the Secretary 
back, and I know she is willing to come.
    Mr. Scalise. And I appreciate that. The problem we have is 
that these discussions are ongoing every day. There could be a 
bill on the House floor. We don't have any assurance that we 
are going to have a hearing before a vote occurs, and I would 
imagine that the Secretary is well-versed in these issues 
because I know you were in the joint session with us last week 
in the House Chamber when the President made those firm 
commitments. He said he would not sign a bill that added to the 
deficit by a dime. He said that he would not support illegals 
getting access to health care. And yet in the CBO testimony, 
the CBO sat here in the chair you are sitting in and said 8 
million illegal aliens would have access to the government 
tape. And he said that it would add $239 billion to the 
deficit, so I am sure you understand those issues.
    You were there at the speech last week. I am sure you have 
some ideas of how we can fix that. We have got ideas of how we 
can fix those problems. But would you support the fixes that 
would be necessary to make the bill conform with what the 
President said before Congress.
    Secretary Sebelius. Congressman, as a recovering 
legislator, I am reluctant to sign off on any legislative 
language. I would happy to take a look at it to see if I could 
support it. I certainly support what the President stated going 
forward, that he, I mean, he will sign or not sign a bill. I 
think you can actually count on him.
    Mr. Scalise. And you weren't here, I know, but we presented 
some of those amendments here in committee.
    Secretary Sebelius. I have not heard the CBO's testimony
    Mr. Scalise. To specifically fix those two problems. They 
were voted down by this committee.
    Secretary Sebelius. If you could send me that language I 
would be delighted to take a look at it.
    Mr. Scalise. I would like to get the commitment from the 
acting Chair that we would be able to get the Secretary back 
before any vote is taken on the House floor. I think that is 
very important that we get these questions answered
    Ms. DeGette. The gentleman's time has expired. I did give 
him extra time because of the colloquy. And I know the Chairman 
will work with the Secretary to make sure we can get her back 
here to answer any questions people may have. And with that, I 
will recognize the gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Ms. DeGette. As far as the last 
gentleman, section 246 of the bill makes it very clear illegal 
aliens are not available to get health care underneath H.R. 
3200. And if you remember, since you sat through the markup 
with us, the Space amendment that SCHIP and Medicaid also made 
it illegal. That was unanimously adopted by the committee. But 
so be it. Let's move on to H1N1. Currently, States are expected 
to purchase a portion of the needed vaccine to protect their 
citizens. But it includes a 25 percent subsidy from the Federal 
Government. And my concern is, a lot of our States are 
suffering right now because of the economic downturn and may 
not be able to meet their obligation because of limited 
resources or operational constraints.
    Is there some kind of a plan available under DHS to help 
some of these States like Michigan, California, others that are 
struggling? I don't want anyone not to get it because of States 
budget concerns.
    Secretary Sebelius. Congressman, through the resources that 
Congress has provided and through the resources from the 
Department of Health and Human Services, the vaccine will be 
free, distributed to the States free. They are not expected to 
have a cost share. I think there has been a cost share 
associated with their purchases of anti virals which are in the 
stockpile but not with the vaccine. The vaccine is free, going 
to be distributed. There may be an administration fee by the 
provider, but there is no fee to get the vaccine
    Mr. Stupak. What about the anti viral then?
    Secretary Sebelius. States have purchased anti virals over 
the years in a stockpile. Those are being pushed out as we 
speak, and the department is continuing to replenish that 
stockpile and, if needed, will supply those to States.
    Mr. Stupak. Okay. So no State should have to worry about 
not being able to afford or obtain the anti viral.
    Secretary Sebelius. That is correct. That is what we are 
trying to do with the resources.
    Mr. Stupak. Let me ask you right now. It is flu season now, 
traditional flu season and people are getting their shots. Is 
there some kind of waiting period they should have before they 
get their seasonal flu and the H1N1 flu shot?
    Secretary Sebelius. Well, again, since we don't anticipate 
the real supply of H1N1 until October 15, we are saying to 
people get it now. It is my understanding that the clinical 
trials underway right now are looking at whether or not there 
is any harm to simultaneously getting the flu shot, and as we 
get closer to October we will have that data available.
    Mr. Stupak. Let me ask you this: I am from Northern 
Michigan and we share a border with Canada. We go back and 
forth daily and we are doing a lot of preparation on this side. 
Is there any special considerations being given to border 
communities on the southern border, northern border, and what 
are they doing in those countries, especially as we are moving 
back. It seems like we have got a much more robust program here 
in this country. I haven't seen the same in Canada or 
especially Canada.
    Secretary Sebelius. The Department of Homeland Security 
looked carefully at that issue and the scientific advice during 
the spring, and it was determined that since there was already 
a robust outbreaking of H1N1 already within our borders, that 
border closings really would harm commerce potentially, but not 
really help with the disease outbreak. So there is no 
anticipation at this point to do anything with our northern and 
southern borders
    Mr. Stupak. Well, I don't want to see a border closing, but 
are you coordinating with our countries like Canada in 
particular to make sure that we are doing basically the same 
things, same education programs?
    Secretary Sebelius. There definitely has been a lot of 
national and international discussions and particularly with 
Canada and Mexico. That has been underway since the early 
spring and will continue.
    Ms. DeGette. The gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Madam Chair. And I appreciate the 
Chair's commitment to have the Secretary come back before the 
committee before we have a vote on the health care overhaul 
bill on the House floor.
    Ms. DeGette. I don't have that power. But I am going to 
talk to the chairman who does have that power.
    Mr. Walden. But if you had that power you would give us 
that commitment I know. I appreciate that because a lot of us 
share that concern. I also wanted to draw attention of the 
Secretary to a letter, a bipartisan letter Mr. Rogers, Mr. 
Gonzalez and I and others sent to you recently regarding the 
2010 fee schedule on Medicare as it relates to cardiologists 
and oncologists and proposed cuts that could be as high as 40 
percent in some codes.
    If you haven't gotten that, I don't expect you to be on top 
of every letter that comes your direction, but if you could 
flag that one we would appreciate your response. I was reading 
a story in the paper, one of the papers coming out here 
yesterday from Oregon about the problem in the southern 
hemisphere related to H1N1 as it related to folks in the 
hospital trying to deal with those who were sick. And they 
raised the issue, in the story at least, that the hospital 
workers, the nurses. The doctors, others did not have a 
sufficient and early supply of masks and other protective 
equipment to prevent the spread within the hospital setting.
    Are you and your folks confident that in these environments 
where all of us who get sick are going to rush, that there is 
adequate whatever we call it, the materials, the masks, the 
protective equipment, the whatever, so that those we rely upon 
for our health care will, in and of themselves, be healthy in 
the process and not at unnecessary risk?
    Secretary Sebelius. Congressman, that discussion is 
actively underway. And as I say, the guidance from the CDC is 
about to be issued. We--the scientists have not been in 
complete agreement about the right protocol, particularly with 
the use of respirators going forward, so the request went to 
the Institute of Medicine to do a sort of rapid response study. 
They came back with a protocol which I would suggest is the 
ideal case scenario, a respirator per provider for every 
patient seen. There are not adequate supplies to follow that 
protocol.
    Mr. Walden. So one new respirator for every patient? Every 
time you see a patient the doctor or nurse would have to put on 
a new respirator?
    Secretary Sebelius. That is what the IOM suggested. And the 
stockpiles in the country in the manufacturing capacity would 
not allow us to follow that protocol, so right now, we are 
working actively with OSHA and CDC and the health care 
providers to develop a protocol that actually is more in 
fitting with what the supply looks like, because IOM was told 
not to take into account what is available or what could be 
available over the next 6 months. Unfortunately, the reality is 
we have got to look at what is available. So that discussion is 
actively underway as we speak.
    Mr. Walden. And on that point, the Vice President had said 
at one point, and I think he probably regretted it, that he 
wouldn't put his family on an airplane, et cetera. I was on an 
airplane yesterday and the person behind me was coughing, and I 
am convinced was taking no precautions about the emissions. I 
directed the air filter to flow backwards. What advice and 
counsel do you have for all of us about--I realize we ought to 
cover our mouths and all. But if you are on the other side of 
that, should we be wearing those kinds of protective face masks 
when the outbreak comes? Is it going to be helpful or is that 
just overboard?
    Secretary Sebelius. What I have been told by the scientists 
is that probably not; masks are really not--if you are in a 
caregiver capacity in a home situation, coming in close 
contact, it may provide some protection. But basically, no. And 
if this continues to present much like seasonal flu, you know, 
a number of people get hospitalized with seasonal flu every 
year, we don't have that kind of rigid fitted mask protocol 
underway. So we are trying to balance safety and security. What 
is most alarming, and I think all of you would be great to help 
with, health care workers right now don't get vaccinated. Less 
than 50 percent of health care workers ever get vaccinated for 
seasonal flu, even though they are a priority group for H1N1 we 
are afraid that take up rate may be the same.
    So I would say that is step one is to take advantage of the 
protection that is there with the vaccination, both with 
seasonal flu and then with the H1N1 vaccine because they are at 
the front of the line and we would hope that they would do 
that.
    Ms. DeGette. The gentlelady from the Virgin Islands, Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Madam Chair, and thank you, 
Madam Secretary, for being here with us again today. 
Individuals 25 to 64, with underlying medical conditions such 
as asthma, diabetes and compromised immune systems are one of 
the target groups for the forthcoming vaccine. As you know, 
racial and ethnic minorities are disproportionately affected by 
all of these chronic diseases and more. Are your clinical 
trials, are the people in the clinical trials diverse? And what 
outreach is being, has been done that is culturally and 
linguistically appropriate to reach these sometimes hard to 
reach populations, often with poor public health 
infrastructure, to ensure that they get the adequate prevention 
treatment and so forth?
    Secretary Sebelius. The clinical trials, it is my 
understanding, are diverse, and we are aware of the concerns 
that have been raised in the past. Again, a lot of the trials 
underway are specifically about dosage because the clinical 
trials have been done for years on seasonal flu, which deal a 
lot with outcomes. The challenge of communication and outreach 
strategies is one that we are taking very seriously. So 
traditional media is being used, non traditional media, ethnic 
specific media, so translating everything on the Web site into 
Spanish, into Vietnamese automatically, and then other 
languages can be requested as needed, looking at a variety of 
media outreach that reach non traditional community, working 
with the faith-based and community outreach programs.
    Mrs. Christensen. Okay, because a lot of these communities 
also are not connected.
    Secretary Sebelius. Right. So we are using the faith-based 
groups to connect. For the younger population it is an equal 
challenge. So Facebook and Twitter and ESPN has agreed to 
become a partner for the scrolls they put across college dorms. 
We have a PSA contest on YouTube in terms of trying to get to 
people. So we are really trying to maximize. And special 
outreach to minority providers and health clinics, knowing that 
they are likely to see a lot of folks with underlying health 
conditions who need to understand how serious the risk is for 
this virus where nobody has an immunity.
    Mrs. Christensen. Thank you, Madam Chair.
    Ms. DeGette. Dr. Burgess.
    Mr. Burgess. Thank you, Madam Chairman. Secretary Sebelius, 
I guess I should point out, for health care providers of my 
age, we were, most of us, in the midst of our training during 
the last swine flu outbreak during the Ford administration, and 
remember very vividly some of the problems encountered. So as 
information is gathered as to the safety of this vaccine, I 
think it is extremely important to get that out and get it 
disseminated. We had a big problem in Fort Worth, Texas, with 
the first round of this in the spring. The school district 
closed, and I would say, I think appropriately so, but they 
received a great deal of criticism. The school district across 
the Trinity River in Dallas did not close and obviously there 
were a lot of comparisons made between the decisions of the two 
school districts.
    Still, I think Superintendent Johnson did exactly as she 
should have when she was confronted with a large number of 
suspected cases, and could not get information back in a timely 
fashion from the CDC as far as recommendations. To prevent that 
type of difficulty from occurring again in the fall, I asked, 
and your department was kind to respond and we did a seminar on 
H1N1 in Fort Worth this past August, and we had representatives 
not just from HHS but from DHS and CDC as well as the State and 
county health departments. The impression I got from that day's 
discussion was that the decisions about closure or non closure 
of schools would be left up to the local authorities.
    But then seems like less than 48 hours later, the 
guidelines coming down that your Department would decide when 
schools should close. So I would just simply ask the question, 
who is going to be making these decisions? Is it the local 
folks? Is it you? Is it Secretary Duncan from the Education 
Department? Who is going to be making these decisions? Because 
it obviously impacts not just the school year of the kids, the 
learning curricula of the children, but in Texas, of course, we 
have, like many other States, we have a testing protocol under 
No Child Left Behind, and we don't want to see our school 
districts unnecessarily penalized, but we don't want to see our 
school districts take unnecessary risks with the children's 
safety.
    Secretary Sebelius. School closure both in the spring and 
now, moving forward, are always a local decision. That is made 
at the local level. Having said that, the Centers for Disease 
Control has issued school guidance, and it is just that, 
guidance, what they are seeing from the science and what they 
would recommend. And at this point, the guidance is different 
than what was being discussed this spring, in part because we 
didn't know how lethal the disease would be, and it was very 
unclear whether or not sending your child to school could, 
indeed, cause much more serious harm. Now, we have learned a 
lot over the spring and summer. I have learned a lot from the 
southern hemisphere, and so the guidance issued by the Centers 
for Disease Control and put forward by Secretary Duncan and 
others in outreach to schools across this country is really 
leaning towards keeping schools open, having protocols 
available in the school to deal with outbreaks, isolating kids, 
sending them home, trying to make sure that teachers and 
students are vaccinated, but keeping schools open. That could 
change. The flu could change. We are watching it very closely. 
But the school decision will continue to be made at the local 
level.
    Ms. DeGette. The gentlelady from Florida, Ms. Castor.
    Ms. Castor. Thank you, Madam Chair. And thank you, Madam 
Secretary, for all of your efforts in educating the country on 
H1N1. I am not unlike the millions of parents across the 
country that have been, we have been teaching our kids, you 
know, wash your hands all the time, cover your cough. We 
haven't altered substantially the way we live our lives. So 
this Saturday we had a dozen 9- and 10-year olds over for my 
10-year old daughter's birthday party. And they did not protest 
when I had them wash their hands before snacks, wash their 
hands again before cake, wash their hands again towards the end 
of the evening. But wouldn't you know it, that one of my 
daughter's friends got sick at the party. And her mother called 
me yesterday and, sure enough, it is H1N1.
    Now, of course she is staying home from school, and there 
are a number of kids out this week. But parents want to know, 
and your guidance is very good. The CDC guidance is very good. 
But the question I hear a lot from neighbors and other parents, 
you know, how long does the child have to stay out of school? 
And this guidance, it says that a person who has it can infect 
others up to 5 to 7 days after getting sick. But it also says 
that it is okay to go back to school 24 hours after the fever 
is gone. So what is the most consistent answer I can give to 
parents of a child that has just come down with H1N1?
    Secretary Sebelius. I think the scientists are saying 24 
hours after the fever is gone, without any medication to lessen 
the fever. And the problem is that for the kind of average, 
maybe five to 7 days, a lot of kids it may be two to 3 days and 
then 24 hours later they are ready to go. So it is hard to give 
you a date specific. I think it is a child-to-child situation. 
Some have more serious cases. Some have lesser cases. But 24 
hours without any medication since the time you have had a 
fever they say is safe to go back.
    Ms. Castor. Even though they could still infect other kids 
a few days after that?
    Secretary Sebelius. The doctor is telling me what they are 
seeing is that the vast majority can't infect at that point, 
and that is why they have arrived at this 24 hours after the 
fever.
    Ms. Castor. Terrific. Okay. Thank you very much.
    Ms. DeGette. The gentleman from Iowa, Mr. Braley.
    Mr. Braley. Thank you Madam Secretary for joining us. And I 
think everyone is concerned about the public health 
implications, but there are some unintended consequences of the 
public health campaign that I think we also need to be 
conscious of. And one of the concerns that I expressed at an 
earlier hearing when we had representatives of the CDC here, 
was the decision to refer to this virus generically as swine 
flu, despite its origins, and the enormous negative impact it 
has had on our pork industry because of a lot of myths and 
misconceptions.
    And yet I know that public health officials have determined 
that it is easier to get college students' attention about the 
need for getting prepared and exercising precaution when you 
refer to it by the name swine flu, as opposed to H1N1. So we 
have got these conflicting things going on. And one of the 
things that I am very concerned about is how we balance those 
interests, given the enormous economic implications to states 
like mine, when people have half truths and misinformation and 
yet the reports that I have seen as recently as this weekend in 
The Washington Post, ``Sebelius encouraging news regarding 
swine flu vaccine, their choice, not yours.'' New York Times, 
``One vaccine shot seen as protective for swine flu.'' So how 
can we address the enormous public health challenge that we are 
all legitimately concerned about, and still address this 
enormous negative economic impact that it has had on our pork 
industry.
    Secretary Sebelius. Congressman, that is a great question, 
and I can tell you it is one that we are wrestling with a lot. 
I hope never out of my mouth have you ever heard that other 
term, or out of CDC or NIH or the FDA. And I have taken it on 
as a bit of a personal mission when I am with media, reporters 
and being interviewed to correct them and ask that they please 
use the terminology that is accurate, because there is a lot of 
misinformation and we have, on several occasions, and I join 
with Secretary Vilsack and again the other side of this, 
assuring people that nothing at all in this flu is related to 
eating pork. You can't get it from pork. There is no crossover.
    But you are absolutely right. I know there has been over a 
billion dollars, if I understand it, and that may be very 
underestimated at this point. And we would welcome any 
suggestions. I think it is easier to do so they do it. But I 
would agree it is a huge, and it has an enormous economic 
impact. I have even suggested, and maybe you want to conduct 
your own media campaign, that maybe we should challenge people 
to use the right terminology. You could send them a pork chop 
every time they use the right term, but take it away.
    Mr. Braley. Or they could come to the Congressional rack of 
pork reception tomorrow night in the Longworth.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
California, Mrs. Capps.
    Mrs. Capps. Thank you, Madam Chairman. Secretary Sebelius, 
you have been very patient this afternoon and I hope that this 
won't take the full 5 minutes. But I want to thank you and I 
want the record to note that you really did hit the ground 
running. After your confirmation you had a lot of issues on our 
plate. I have seen you everywhere on both health care reform in 
very positive ways and also on this topic. And I am referring 
to a bicameral briefing that you and several Secretaries 
presented to Members of Congress. It was midsummer, if I am not 
mistaken, in between, sort of like the spring outbreak. And my 
question then was to acknowledge the role that a school nurse 
played in the first case in the Bronx that resulted in massive 
school closures. And as a former school nurse, I sort of 
emphasized, I know why districts close their schools, but it is 
chaotic when it happens. Parents have to--parents don't have 
back up plans a lot of times and they miss work and all the 
things that ensue and you find kids in the mall and all kinds 
of places when that happens.
    So now I am pleased to follow the chain of questions that 
have been asked. And I will, since this topic has come up, I am 
interested in the nuances now that have occurred watching the 
epidemic as it has proceeded, and now as this school season 
hit, and many of the campuses, a little older teenagers, young 
adults and that captive environment which can be dealt with 
somewhat differently because they are not so dependent on 
parents and jobs and things.
    But still, I would like to have you address just for a 
minute for the record, because the relationship between your 
department and CDC and the local communities is very specific 
and I think, unlike many other departments, with very direct 
communication, and outline for us a few of the ways that you 
have been working with local health departments as they then 
are partners with local school districts to formulate and get 
the right kind of advice tailored to different parts of the 
country, so that we behave in the proper way as this comes out, 
both in terms of immunizations, vaccination plan, and also what 
to do when, like my colleague, Kathy Castor's own child's 
daughter's friend, you know, what, how do you respond?
    Secretary Sebelius. Well, I think that is a great question. 
Since the spring I would say the three cabinet secretaries who 
have been sort of at the forefront of this effort are Secretary 
Napolitano with the Homeland Security and government 
coordination work, but Secretary Duncan from the Department of 
Education, because, given the age group of the target 
population, that has been a real effort. And he has regular 
calls, regular outreach with superintendents and principals and 
teachers all throughout. The CDC has specific guidance that is 
on the flu.gov Web site at which we have asked schools to 
download and take a look at.
    And what happened to really change the school advice, the 
guidance that was out, from leaning toward closing schools to 
leaning toward keeping them open, was first realizing that it 
would not present itself as a more lethal disease. Secondly, 
recognizing that there are a whole series of other health 
impacts for children who are sent home, missing often school 
breakfast and lunch which has a nutritional impact, being in an 
unsafe environment, which has a significant impact if there is 
nobody home to take care of them. And on balance, given the way 
the disease was presenting, it seemed wiser that the guidance 
be toward keeping schools open, but trying to isolate and send 
home sick children, urging parents to keep them home in the 
first place, but if they show up at school, send them back 
home, isolate them until you can find a parent. I think that 
this may change as we go along.
    And what we know is that what we saw this spring there are 
going to be some areas of the country, some cities that have 
lots of cases like New York did in the spring. There have going 
to be others relatively close by that may have very few cases, 
so it is impossible to have a national protocol, and school 
decisions will continue to be very local. But that outreach, we 
do an every 2-week call; we have had a big flu summit and asked 
governors to send in their education secretaries, their 
homeland security, their emergency planner, their health, so 
the school folks have been part of this conversation in a very 
robust way from day one.
    Mrs. Capps. Thank you very much.
    Ms. DeGette. The gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. Madam Secretary, thank you for your service, 
and thank you for coming here today and sharing with us on 
this. My name is John Barrow. I represent Savannah, Georgia, 
Augusta, Georgia and all points in between. Our prior response 
to seasonal flu might not be the best guide for what we should 
do, but it is probably a pretty good guide as to what we will 
do unless we do something different. And I am given to 
understand that less than half the targeted populations we 
reach out to on a regular seasonal basis get the vaccine that 
is suited for that situation. And so we have got to anticipate, 
unless we do something different we are going to have a similar 
success rate in response to this new threat. I understand that 
one of the targeted populations we are trying to reach in 
response to the H1N1 is the population of children and young 
adults 6 months to 24 years of age.
    Kind of sets it apart a little bit perhaps from the 
seasonal flu. I am having a telephone conference call this 
afternoon with a pretty influential bunch of folks with respect 
to that targeted population. My public health expert, Ms. Betty 
Dixon, is with me today, and she is going to be participating 
in this conference. We are going to be talking with every 
superintendent, every assistant superintendent, the principals 
from every elementary, middle and high school in the district, 
and the deans of students at many of the 18 institutions of 
higher learning that we have in my district.
    So my question to you is sort of a general one. What can we 
do, what can we say in the course of that conversation, for 
that captive and very influential audience to help them get a 
higher success rate in reaching the targeted population they 
have some influence over than we have been able to do so far 
with respect to seasonal flu? What can we tell them that we are 
not already telling them?
    Secretary Sebelius. Well, I think that you can tell them 
that we know that they have the target population, and that if 
it is nothing more than just lots of folks getting the flu, 
that has a huge disruptive factor, so having, minimizing the 
spread right now, and then vaccinating we know is the best 
defense against the flu spread. We do have some great 
information on the Web site. I would suggest that maybe if you 
put the widget on your Web site and urge them to come and 
download, you know, we have got parent tool kits and 
information for teachers.
    Mr. Barrow. This is how to. What can we tell them as to why 
to? What can we tell them to motivate them to make a greater 
effort than has been made in the past?
    Secretary Sebelius. Well, they can keep people from being 
hospitalized and dying. If 36,000 children in this country die 
from this flu, I would suggest it will have a huge impact on 
communities around the country. And that is the average death 
rate for seasonal flu. So even if it is just like regular flu, 
given the population that, basically, they are responsible for, 
that is what it looks like. And so I think you need to convince 
them even the regular flu is particularly, is different because 
it is kids and it is young adults. They have no immunity to 
this whatsoever.
    So anybody with underlying health conditions is really at 
far higher risk. And I think just getting their hands around 
200,000 hospitalizations year in, year out with seasonal flu, 
36,000 deaths, that is what the profile looks like, but 
typically, because of the age of the population who is 
typically affected and because of their frail condition I am 
not sure it has the kind of societal impact, community impact. 
There is, Dr. Schuchat tells me, a new tool kit for school 
immunization that will be on-line, well, that went online on 
the 13th.
    Mr. Barrow. Available at?
    Secretary Sebelius. But I just think, you know, getting 
their attention about how even mild flu is very serious. People 
die, people get very sick. And anything we can do to prevent 
that, really, we need them to do.
    Mr. Barrow. Thank you.
    Ms. DeGette. Mr. Pitts is now recognized for 3 minutes.
    Mr. Pitts. Thank you, Madam Chairman. Madam Secretary, what 
geographic regions of the country does HHS expect to be hit the 
hardest by the H1N1 strain during the winter flu season? Is 
there any projections that your Department has made? It seems 
like the south has reported an increase in cases. That might be 
just because they start school earlier in the south. I don't 
know. Do you have any ideas on that?
    Secretary Sebelius. We really, Congressman, saw very 
scattered cases throughout the country over the spring, during 
the outbreak. There was no one region, one area isolated. We 
think that the rise in cases in the southeast, which showed up 
first, is because of the fact that they did start school 
earlier and kids came together earlier. We are starting to see 
cases though, spread, Oregon, Kansas, I mean so it is beginning 
to spread out as people come back to school, as colleges re-
engage. So we don't have any information that gives us kind of 
a regional or local look at what is likely to be more of an 
outbreak, which is why it is so important that we keep watching 
it very closely and monitoring what is happening on the local 
level.
    Mr. Pitts. Have all of the States implemented what you 
would consider adequate stay preparedness plans for this?
    Secretary Sebelius. Well, Congressman, all States were 
required in order to access the funding available to help them 
implement, they were all required to submit plans. I think that 
the assessment was that many States are ready in a very robust 
way. Others were in okay shape, and some really needed a lot of 
help. We have provided technical assistant, support, on the 
ground surveillance. We also had teams that did site visits to 
try and verify that what was coming in in the written plan was 
actually accurate in terms of what was available. So we are 
trying to provide resources, help, support, and get States 
ready to go, because a lot of this will have to be, the shots 
in the arm are really going to be a State and local effort.
    Mr. Pitts. Will there be enough vaccine for all of the 
States to have?
    Secretary Sebelius. Yes.
    Mr. Pitts. And are they adequately stockpiled now?
    Secretary Sebelius. Well, the vaccine isn't stockpiled 
because it hasn't been produced, so that the vaccine, we hope, 
will begin to be widely available on the 15th of October, which 
is the target date. We anticipate having some early supplies as 
early as 10 days before that and it will be distributed as soon 
as it comes off the production lines.
    Mr. Pitts. Okay. My time is up. Thank you.
    Ms. DeGette. The gentlelady from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Madam Secretary. It is wonderful to 
see you. And I want to salute you for your very steady, strong, 
sensible leadership. Whether you are testifying here or I see 
and hear you on whatever TV program, I think that you speak 
very clearly to the American people, and I think that we all 
appreciate that. There are, what, five companies that are 
making the--responsible for the----
    Secretary Sebelius. Five manufacturers.
    Ms. Eshoo. Making the vaccine. One of them is MedImmune, 
and they are in my Congressional district. Theirs is a nasal 
spray, while the others are the traditional injections. What I 
would like to know is, is this something that would be better 
used for children? Are you going to make a choice relative to 
that? Does it really matter? Is it good for adults? Is it as 
good for children? And how do you think that it might affect 
the voluntary compliance rate for those opting to get the H1N1 
vaccine? And what I am going to do, since we only can have one 
question, is to follow up on some funding questions relative to 
this whole thing. But I will just stick with that for now.
    Secretary Sebelius. What Dr. Schuchat tells me is that it 
isn't, the nasal mist is not recommended for the youngest 
children.
    Ms. Eshoo. Oh, it is not?
    Secretary Sebelius. Two to 49 seems to be the target 
population, as long as they don't have underlying health 
conditions. So, again, some of the highest risk children would 
not be recommended to get the nasal mist instead. But it 
certainly is a viable alternative for a lot of population.
    Ms. Eshoo. Good. Well, thank you again for what I think is 
really special and highly needed leadership. We are proud of 
you. Thank you.
    Ms. DeGette. The gentleman from--Mr. Shimkus for questions.
    Mr. Shimkus. Yes, I just want to--again, I was here for 
some of the opening statements. Welcome, Madam Secretary here. 
Education, education, education is the key, especially for a 
couple of things. Obviously, just you know, passing of the food 
and the germs and all this other stuff. But also, we already 
have a run on hospitals, emergency rooms with people who are, 
in essence, just having the everyday flu-like concerns. And I 
know that we have to do a good job calming the public so that 
they use the services when they are needed but don't over-
utilize them when they are not. And I don't know how you--I am 
not a health practitioner so I don't know how you gauge that, 
but I do think that education is the key.
    And I would agree with my friend, Anna Eshoo, the calming 
presence that your position is going to be required to hold 
especially as we come into this season of the year. I have 
three small--well, they are not small. I have a junior, a 
freshman and a fourth grader, so we are all concerned when they 
start closing down schools and maybe before they should and so 
I just want to encourage you. I don't have any answers. I would 
like to yield the rest of my time to Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Shimkus. I just had a follow-up 
question that came up. One of the questions down here was on 
the funding issue. And there was a little over $7.5 billion for 
the H1N1 flu in the stimulus bill; is that correct?
    Secretary Sebelius. That is correct.
    Mr. Burgess. So have these funds been disbursed? Are they 
readily available to you? Are they still being held somewhere 
in the stimulus pot? Or do you have all of the money you need? 
Do you have the funding that you need at this point?
    Secretary Sebelius. At this point, Congressman, we do. We 
are drawing that money down. We have made a couple of draw 
downs to buy vaccine and get ready to distribute it. Now that 
we have a little more clinical data, we are likely to have a 
more accurate picture of how much vaccine we are going to need. 
We have used some of it to replenish the stock piles of anti 
virals that we sent to the States to help, as I say, about a 
billion four so far has gone out to States and hospitals for 
surge capacity. We are buying protective equipment. So we are 
trying to do a step at a time. And at this point, the funding 
provided is extraordinary helpful, and we----
    Mr. Burgess. So at the present time you don't anticipate 
having additional funding requirements that we will be asked to 
deal with?
    Secretary Sebelius. At this point I don't have them. Again, 
we are watching this very closely. If this turns more lethal, 
if it begins to present itself in a different way, if, you 
know, things change and the surge capacity wrong, at this point 
I think we are on target, but it is a day-by-day operation.
    Mr. Burgess. Let me just ask you one other follow up for 
Mr. Walden. He, of course, alluded to the fact that we have 
got, and this is off the subject of the avian flu, but it is so 
important because in 3 months' time, cardiologists, oncologists 
and, indeed, all physicians who practice under the Medicare 
system are going to receive a 21 percent reduction if Congress 
doesn't do something. Now, we still have a vacancy at the head 
of the Center for Medicaid and Medicare Services, is that not 
correct?
    Secretary Sebelius. That is correct currently.
    Mr. Burgess. How close are we to filling that position?
    Secretary Sebelius. We hope very close.
    Mr. Burgess. This is a critical issue, and I would 
encourage you to get that done. And again, Congress has an 
obligation to its provider community to step up and do the 
right thing as far as the sustainable growth rate formula, but 
it is very, very difficult to even get an answer out of the 
Center for Medicare and Medicaid Services right now without 
anyone at the helm.
    Secretary Sebelius. We do have, as you probably know, 
Congressman, a new leader for the Medicare and a new leader for 
Medicaid who are in place, John Blum and Cindy Mann, and they 
are doing a spectacular job. But I share your concern about the 
leadership, and we are very close.
    Ms. DeGette. Thank you. The Chair now recognizes Mr. 
Sarbanes from Maryland for 3 minutes.
    Mr. Sarbanes. Thank you, Madam Chair. Thanks so much for 
spending all this time with us. You are close to the end here. 
I know we are all very grateful that you are in this position 
at this time because you have handled things so superbly, and I 
think with a sense of calm that is contagious in a good way. So 
just don't get the flu.
    Secretary Sebelius. Well, maybe I can walk people through 
it a step at a time.
    Mr. Sarbanes. Right, exactly. I think you answered the 
first question I was going to ask, which is the lethality, the 
judgment about how lethal this thing can be could change. I 
know that initially there was concern that it be more lethal 
than it has turned out to be but you just alluded to the fact 
that it could turn back in the other direction; is that right?
    Secretary Sebelius. That is correct.
    Mr. Sarbanes. Okay. And I was just curious. I imagine you 
have ways of judging the success of our overall effort to 
contain this pandemic as we go forward, which would include 
clearly looking at the number of lives lost in the process. I 
would imagine how well we are doing addressing these high risk 
groups out of the gate, what is happening in particular 
communities in terms of the modeling that that suggests. I 
wonder if you could just point to any other sort of prime 
indicators you are going to be looking at, and also comment on 
whether you anticipate that there will be kind of pivot points 
along the way, where we may need to regroup and move in a kind 
of different direction than we are anticipating right now.
    Secretary Sebelius. Great questions. I think that one of 
the lessons learned from the '76 experts was that there do need 
to be points along the way that you make sure we are still on 
track because, as people keep telling me, the predictable fact 
about the flu is it is unpredictable. It could change. So 
monitoring very closely what we are seeing and part of the 
lethality is really watching what happens when H1N1 begins to 
mix with the seasonal flu viruses. What we saw in the southern 
hemisphere is still encouraging, that it did not mutate into a 
significantly more dangerous virus. That is good news. But can 
that happen next month, the following month? You bet.
    So there will be continued monitoring and testing, 
particularly the more serious cases when they come to the 
hospital, and making sure that we know we are on target. The 
vaccine seems to be exactly what it should be to target H1N1. 
The robust response is great. The limited time that it is 
taking is very good. And the fact that one dose seems to 
actually produce a good immunity response. All of that is very 
good news. But I think watching the outbreak, certainly 
monitoring very carefully hospital capacity, how to deal with 
the more seriously ill folks, we really worry about, right now, 
anti viral treatments. We are, unfortunately, seeing many 
providers give anti virals prophylactically, so suggesting that 
people would fill a prescription and take it to prevent the 
flu.
    What our scientists tell us is exactly that is the wrong 
direction because it actually lowers people's immune response. 
It could make them far sicker in the long run, and it will draw 
down our anti viral stockpile. So that is a particular concern 
that we put out new anti viral guidance. We are doing some 
aggressive outreach to the provider communities trying to 
remind them that that really is a strategy which is very 
counter productive in the long run. So I don't know what is the 
next challenge like that. But we will have them.
    Ms. DeGette. Thank you. The gentleman from Washington, Mr. 
Inslee.
    Mr. Inslee. Thank you. Do you have any issues as far as 
prioritization, geographically or otherwise, when we have a 
vaccine become available? Could you identify those issues that 
the public may be interested in or we may be interested?
    Secretary Sebelius. Well, there is certainly no geographic 
priority. We have asked the States to present plans, which they 
have. And the community on immunizations, I mean, the Committee 
on Immunizations has developed a priority list based on the 
science, basically five categories of people who total about 
160 million Americans, pregnant women, caregivers of infants 
under the age of 6 months, children 6 months to 24, 
particularly those with underlying health conditions, adults 24 
and up with underlying health conditions and health care 
workers.
    And that is about 160 million people. We said to States, 
figure out how to get those folks to the front of the line. 
What are the best outreach opportunities, and that is where the 
vaccine will flow. There will be about 90,000 sites that will 
receive vaccine based on the State plans that we have. So we 
are not targeting folk. We are not making, we are just trying 
to use our bully pulpit in the communication to say to those 
target populations, you really need to think about this. And 
one of the challenges, as you all know, will be to get parents 
ready to sign consent forms for kids, so information is going 
home in schools to say to parents, this will be available we 
think by the middle of October. But here is what the concept 
form is going to look like. Think about it. Get ready to sign 
it. So if we have a vaccination effort at your school, your 
child actually can be vaccinated.
    Mr. Inslee. I heard a, to me, sort of surprising comment by 
an ER room doc last week when I was home suggesting that one of 
the problems may be overutilization of our ER room services 
associated with this, that they are concerned about people 
coming in.
    Secretary Sebelius. The worried well.
    Mr. Inslee. The worried well. And we understand worry and 
we would all like to be well. You know, just to the extent we 
disseminate information, what would you tell us all? And you 
may have already talked about this, but it bears repeating, I 
think, in that regard. When should people really feel compelled 
to go into the ER room as opposed to calling your physician 
first or nurse?
    Secretary Sebelius. Well, I would even back it up a step; 
that if someone comes down with the flu, either an adult or a 
child, and there are no serious consequences more than a fever 
and aches and pains, go to bed, chicken soup, stay away from 
other folks. I am not sure you need to take additional steps. 
Anyone with underlying health conditions, asthma, diabetes, 
neuromuscular disorders, should contact a physician on 
presentation of flu-like symptoms. That is the population for 
anti virals. That is who needs Tamiflu fairly quickly, or 
Relenza. And then certainly anybody who then is more seriously 
ill or a child who becomes lethargic or, you know, there are a 
series of again, tips on the Web site. You take the next step. 
But it is really a triage. People who just come down with the 
flu probably don't need to call a doctor or have an anti viral 
or certainly not go to the hospital.
    Mr. Inslee. Thank you. Thanks for your work.
    Ms. DeGette. Thank you very much. The Chair will now 
recognize herself for, I think, the last questioning. And I 
want to thank you Madam Secretary and also the CDC staff again, 
for the remarkable job all of you have done in getting the 
information out, in tamping down panic. I think that the public 
health effort is going really well here. Several times in your 
testimony, you referred to the concern that we have that this 
virus could mutate. We hope that it won't. It didn't in the 
southern hemisphere. But we have had a number of hearings in 
this committee over the years about various flu strains. And, 
of course, the avian flu has been a big concern in this 
committee over the years. I am wondering, first of all, how are 
we coming in developing a cell-based vaccine, rather than the 
traditional egg-based vaccine that we are still using for 
development of the H1N1 vaccine?
    Secretary Sebelius. My understanding, Congresswoman, is we 
are still a couple of years away from the different technology. 
Cell-based, I think, is the sort of high tech version. Actually 
tobacco growing is also regarded by folks as sort of promising, 
but we are not close to, I mean the last time I talked to folks 
it is probably still a couple of years away.
    Ms. DeGette. But are we making a real effort towards these 
other vaccines? Because part of the problem we have, and part 
of our concern last spring with H1N1, was that we might not be 
able to identify the strain quickly enough to make a 
vaccination because we do have to produce the eggs.
    Secretary Sebelius. Well, that, investing in developing a 
faster newer technology is still very much underway. It is part 
of what we are doing on an ongoing basis. So we are trying to 
accelerate the work. But it is not imminent that we will have 
another methodology for developing a vaccine than the egg-based 
methodology.
    Ms. DeGette. I think you can expect more hearings on this 
topic, and we are going to also ask some of the experts for the 
NIH and CDC because what could happen is if we have an avian 
flu or some other kind of epidemic that is as fast moving as 
this H1N1 then we would have really been in trouble.
    Secretary Sebelius. Well, I think you are absolutely right. 
And I think this is a, hopefully it won't be more than this, 
but a sort of wake up call that up till now it has been 
hypothetical. It is now very real and we are watching a disease 
spread enormously quickly, not only in this country but it has 
now presented in about 120 countries around the world. So we 
know this is real.
    Ms. DeGette. Right. And with great rapidity. What are we 
doing for people who are allergic to the egg-based vaccines 
with the H1N1 vaccine? Can they just not get it?
    Secretary Sebelius. I was just told that they can not get 
it. But vaccinating those around them is the best way to help 
to protect.
    Ms. DeGette. Now, what is it status right now of H1N1, the 
avian flu virus? Is it still lurking out there in parts of the 
world.
    Secretary Sebelius. It is still there. It is continuing to 
cause disease, but it isn't being transmitted very easily.
    Ms. DeGette. I have a last question. Ms. Castor has the 9 
and 10-year-olds at home. I have the college student. And the 
college students now, this was like when our kids were little 
and we had the chicken pox parties, the college students are 
now having flu parties where they are trying to purposefully 
get--I don't want to know exactly how they are trying to share 
the virus, but they are.
    Secretary Sebelius. Sneezing on each other.
    Ms. DeGette. And so she and her friends asked me to ask 
you, what is your advice about this practice of these flu 
parties?
    Secretary Sebelius. I would say it is a pretty bad idea.
    Ms. DeGette. That was my motherly advice, too. So I just 
want to know from the expert.
    Secretary Sebelius. And I am sure they won't listen any 
more to me than to you. But, again, this is a serious disease. 
Most people, getting the flu is a problem. You miss work, you 
miss--but for a lot of people, this is deadly. And so doing 
anything to transmit the disease, and particularly I would say 
to our young and people who think they are invincible, a number 
of the younger folks may have health conditions that they are 
not even aware of and they really could be in serious trouble 
by voluntarily getting this flu.
    Ms. DeGette. So, I mean, in all seriousness, the advice of 
the CDC and everybody else is that, for everyone, they should 
be taking hand-washing protocols, doing their best if they feel 
sick to isolate themselves to others and to keep this from 
spreading.
    Secretary Sebelius. Absolutely. And 6- to 24-year-olds, 
including the college age group, are in the first priority to 
get vaccinated. That is the best way on a college campus and a 
dorm to keep kids safe. We have done a lot of outreach to 
college presidents to say, find a dorm or find an isolation 
room. You can't often send kids who are away from school home, 
but isolating them from one another. Don't have them go to the 
school cafeteria to get meals. Figure out a way to get the 
meals. Keep them away from roommates. Because what we know is 
this spreads very, very rapidly.
    Ms. DeGette. And when the vaccine does come out, the 
college students should all go get vaccinated.
    Secretary Sebelius. Exactly.
    Ms. DeGette. Thank you so much. We have ended under time, 
and we are very appreciative of your testimony today. We look 
forward to seeing you again.
    Secretary Sebelius. Glad to be here.
    Ms. DeGette. Before I adjourn the hearing, let me say the 
record will stay open for 7 days for members to submit 
additional questions.
    [Whereupon, at 3:16 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4097A.028
    
    [GRAPHIC] [TIFF OMITTED] T4097A.029
    
    [GRAPHIC] [TIFF OMITTED] T4097A.030
    
    [GRAPHIC] [TIFF OMITTED] T4097A.031
    
    [GRAPHIC] [TIFF OMITTED] T4097A.032
    
    [GRAPHIC] [TIFF OMITTED] T4097A.033
    
    [GRAPHIC] [TIFF OMITTED] T4097A.034
    
    [GRAPHIC] [TIFF OMITTED] T4097A.035
    
    [GRAPHIC] [TIFF OMITTED] T4097A.050
    
    [GRAPHIC] [TIFF OMITTED] T4097A.036
    
    [GRAPHIC] [TIFF OMITTED] T4097A.037
    
    [GRAPHIC] [TIFF OMITTED] T4097A.038
    
    [GRAPHIC] [TIFF OMITTED] T4097A.039
    
    [GRAPHIC] [TIFF OMITTED] T4097A.040
    
    [GRAPHIC] [TIFF OMITTED] T4097A.041
    
    [GRAPHIC] [TIFF OMITTED] T4097A.042
    
    [GRAPHIC] [TIFF OMITTED] T4097A.043
    
    [GRAPHIC] [TIFF OMITTED] T4097A.044
    
    [GRAPHIC] [TIFF OMITTED] T4097A.045
    
    [GRAPHIC] [TIFF OMITTED] T4097A.046
    
    [GRAPHIC] [TIFF OMITTED] T4097A.047
    
    [GRAPHIC] [TIFF OMITTED] T4097A.048
    
    [GRAPHIC] [TIFF OMITTED] T4097A.049
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
